                                      SOCIAL SECURITY
MEMORANDUM

Date:      April 17, 2008                                               Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   On-site Security Control and Audit Reviews at Program Service Centers
           (A-03-07-17064)


           The attached final report presents the results of our audit. Our objectives were to
           assess (1) the Social Security Administration’s (SSA) procedures for selecting Program
           Service Center components for On-site Security Control and Audit Reviews (OSCAR),
           (2) SSA’s system for ensuring appropriate correction of deficiencies identified through
           OSCARs, and (3) additional steps SSA can take to enhance the OSCAR guide.

           Please provide within 60 days a corrective action plan that addresses each
           recommendation. If you wish to discuss the final report, please call me or have your
           staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
           (410) 965-9700.




                                                             Patrick P. O’Carroll, Jr.

           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

  ON-SITE SECURITY CONTROL
      AND AUDIT REVIEWS
  AT PROGRAM SERVICE CENTERS

  April 2008      A-03-07-17064




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                Executive Summary
OBJECTIVE
Our objectives were to assess (1) the Social Security Administration’s (SSA) procedures
for selecting Program Service Center (PSC) components for On-site Security Control
and Audit Reviews (OSCAR), (2) SSA’s system for ensuring appropriate correction of
deficiencies identified through OSCARs, and (3) additional steps SSA can take to
enhance the OSCAR guide.

BACKGROUND
SSA must comply with the Federal requirements associated with management controls
and provide assurances that its financial, programmatic, and administrative processes
are functioning as intended. SSA designed the Management Control Review (MCR)
program to satisfy the Federal requirements. The MCR program is implemented within
the PSCs using the Program Service Center OSCAR Guide, which standardizes
Agency-wide review techniques and reporting criteria for various management control
areas.

SSA has eight PSCs, six of which are located in the regions, and two are located in the
Agency’s Headquarters in Baltimore, Maryland. The Centers for Security and Integrity
(CSI) are responsible for conducting OSCARs at the PSCs, while the Division of
Financial Integrity (DFI) is responsible for ensuring compliance of the MCR program.
Under the PSC OSCAR guide, the components within the PSCs are required to be
reviewed at least once within a 5-year period. The reviews cover a number of
programmatic and administrative functions, including: (1) security of automated
systems, (2) physical and protective security, (3) time and attendance, (4) enumeration,
and (5) third-party draft account.

RESULTS OF REVIEW
We found that two of the eight PSCs were not on track with meeting the PSC OSCAR
requirement that each PSC component be reviewed at least once every 5 years. The
two PSCs located in SSA Headquarters had not been reviewed under the PSC OSCAR
process at the time of our review, even though it conducted the same type of work as
the non-Headquarters PSCs. Currently, SSA is developing an OSCAR guide for these
two PSCs and plans to conduct reviews in FY 2008. Moreover, we found that SSA did
not have a consistent policy to determine which PSC components should be included in
the OSCAR process. As a result, some PSC OSCARs were more comprehensive than
others.




On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)                  i
Generally, we found the issuance of the OSCAR reports and implementation of the
recommendations to be timely, but monitoring and following up on actions related to
OSCAR reports could be improved. Finally, current PSC OSCAR guidance did not
include sufficient steps to ensure that sensitive information contained in SSA’s
automated systems was properly protected.

CONCLUSION AND RECOMMENDATIONS
While SSA is making progress to ensure that all PSCs meet the 5-year OSCAR
requirement, the Agency needs to ensure that the CSI components have a consistent
method for identifying components subject to review and then maintain a management
tracking system to assess their overall progress. Finally, SSA needs to ensure the PSC
OSCAR guide addresses known areas of risk, such as the need to safeguard laptop
computers and/or the personally identifiable information contained therein.

To improve the OSCAR process and increase its effectiveness, we recommend SSA:

•   Develop a consistent national policy on which PSC components are included in the
    OSCAR process and ensure any changes from this policy are approved by DFI
    management.

•   Review all PSC components at least once during a 5-year cycle.

•   Establish a minimum number or percent of PSC component reviews that must be
    conducted annually within each region, similar to the 10-percent rule used by other
    SSA offices conducting OSCARs.

•   Ensure the Office of Disability Operations and the Office of International Operations
    PSCs are reviewed timely under the PSC OSCAR process.

•   Require that the CSI offices obtain and maintain validation reports in a timely
    manner.

•   Develop the Automated OSCAR for the PSCs so that CSIs can (a) automatically
    track and monitor the OSCAR reports, corrective actions, and validation reports and
    (b) accurately report to DFI the number of reviews conducted.

•   Update the OSCAR guide, as needed, to include the protection of sensitive data,
    especially to safeguard laptop computers and/or the personally identifiable
    information contained within the laptop computers taken outside of the PSCs.




On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)                    ii
                                                                      Table of Contents
                                                                                                                Page

INTRODUCTION ..................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 3

OSCAR Coverage and Selection ............................................................................ 3

    •    Required Coverage ...................................................................................... 3

    •    Selection of Components for Review............................................................ 5

Corrections of Deficiencies...................................................................................... 7

    •    Timeliness of Issuing and Responding to OSCAR Reports .......................... 7

    •    Follow-up Reports ........................................................................................ 8

    •    Monitoring System ........................................................................................ 8

    •    Protection of Sensitive Data ....................................................................... 10

CONCLUSIONS AND RECOMMENDATIONS ..................................................... 11

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Functions and Description of the Program Service
             Centers

APPENDIX D – Comparison of Program Service Center Components
             Reviewed Under On-Site Security Control and Audit
             Reviews

APPENDIX E – Recommendations Not Implemented

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments



On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)
                                                                             Introduction
OBJECTIVE
Our objectives were to assess (1) the Social Security Administration’s (SSA) procedures
for selecting Program Service Center (PSC) components for On-site Security Control
and Audit Reviews (OSCAR), (2) SSA’s system for ensuring appropriate correction of
deficiencies identified through OSCARs, and (3) additional steps SSA can take to
enhance the OSCAR guide.

BACKGROUND

SSA must comply with the Federal requirements associated with management controls
and provide assurances that its financial, programmatic, and administrative processes
are functioning as intended. These requirements include the Federal Managers'
Financial Integrity Act (FMFIA). 1 SSA designed the Management Control Review
(MCR) program to satisfy the Federal requirements. The Division of Financial Integrity
(DFI) develops and executes the MCR program in the PSCs to comply with the FMFIA.

SSA has eight PSCs, six of which are located within the regions, and two are located at
the Agency Headquarters in Baltimore, Maryland (see Table 1). The MCR program is
implemented in the PSCs using the Program Service Center Onsite Security, Control
and Audit Review (OSCAR) Guide, which standardizes Agency-wide review techniques
and reporting criteria for various management control areas, including: (1) security of
automated systems, (2) physical and protective security, (3) time and attendance,
(4) enumeration, and (5) third-party draft account. 2 While the Centers for Security and
Integrity (CSI) are responsible for conducting the reviews at the PSCs, 3 SSA may hire a
contractor to perform the PSC reviews as well.




1
    Federal Managers’ Financial Integrity Act of 1982, Pub. L. No. 97-255.
2
 See Appendix B for a complete listing of the management control areas that are reviewed under the
OSCAR process.
3
 The CSIs may refer to the OSCAR reviews by different names, such as Comprehensive Component
Reviews, Management Control Reviews, and External Security Reviews.

On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)                            1
                                      Table 1: PSCs at SSA
                               PSC                                     Location
      Northeastern Program Service Center (NEPSC)             Jamaica, New York
      Mid-Atlantic Program Service Center (MATPSC)            Philadelphia, Pennsylvania
      Southeastern Program Service Center (SEPSC)             Birmingham, Alabama
      Great Lakes Program Service Center (GLPSC)              Chicago, Illinois
      Western Program Service Center (WNPSC)                  Richmond , California
      Mid-America Program Service Center (MAMPSC)             Kansas City, Missouri
      Office of Disability Operations (ODO)                   Baltimore, Maryland
      Office of International Operations (OIO)                Baltimore, Maryland

Under the OSCAR guide, all components within the PSCs must be reviewed at least
once during a 5-year period. For example, a PSC may have 24 different components
associated with areas such as disability operations, claims taking, and personnel and
training, and each of these components must be reviewed within the 5-year cycle. To
evaluate the management control areas as part of the OSCAR process, CSI staff
conducts interviews, observes operations, and verifies information. Once the on-site
activities are completed, the CSI staff meets with component management to discuss
the findings and recommendations. Table 2 below provides the OSCAR reporting and
corrective actions timeline for CSI staff and the components reviewed.

            Table 2: Timing of OSCAR Reporting and Corrective Actions
                                       Component          Component         Calendar Days
                                       Responsible        Monitoring       for Action to be
              Action                    for Action          Action           Completed
 Final OSCAR report to                                    Component
 component manager and DFI                 CSI             Manager              45 days
 Response with corrective               Component
 actions planned and/or taken            Manager           ARC-PCO              45 days
 Validation that corrective actions
 were taken by the component            ARC-PCOa               CSI              90 days
Note a: Assistant Regional Commissioner-Processing Center Operations.

In addition to the OSCARs, the PSC components are subject to other reviews that
assess management controls. For example, PSC managers conduct their own internal
reviews using the PSC Component Manager’s Self-Review Guide, which is patterned
after the OSCAR guide. The self-review is designed to familiarize the manager with the
security responsibilities that are part of his/her job and be used as a tool to assess the
security posture of the manager’s module. The CSI staffs also occasionally conduct
targeted reviews within the PSC components in areas such as time and attendance to
monitor compliance with policies and procedures.




On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)                         2
                                                      Results of Review
We found that two of the eight PSCs were not on track with meeting the OSCAR
requirement that each PSC component be reviewed at least once every 5 years. SSA
is now developing an OSCAR guide for the two Headquarters-based PSCs that have
never undergone a review. In addition, we found that the CSIs did not have a clear,
consistent policy to determine which PSC components should be included in the
OSCAR process. As a result, the CSIs define the PSC components subject to an
OSCAR differently. Moreover, our review found that, generally, the CSIs issued timely
PSC OSCAR reports, and the audited components had taken appropriate actions on the
recommendations.

However, we found that monitoring and following up on actions related to the OSCAR
reports could be improved. Lastly, current PSC OSCAR procedures did not include
sufficient steps to ensure that personally identifiable information (PII) contained in SSA’s
automated systems was protected. Such procedures need to be updated to provide for
adequate review of handling PII contained in SSA’s automated systems.

OSCAR COVERAGE AND SELECTION
Our review found that two of the eight PSCs were not on track with meeting the OSCAR
requirement that each PSC component be reviewed at least once every 5 years. In
addition, we found the Agency did not have a consistent policy to determine which PSC
components should be included in the OSCAR process.

REQUIRED COVERAGE

In our review of the eight PSCs subject to an OSCAR during Fiscal Years (FY) 2004 to
2008, we found that six of the eight PSCs were scheduling reviews in such a way that
they would be able to review each component at least once every 5 years. The two
process centers recently identified as PSCs in Baltimore, Maryland, were not in
compliance with the requirement.

Non-Headquarters PSCs

SSA management noted that, before FY 2004, there was no minimum requirement for
the frequency of reviews or the number of components to be reviewed at the PSCs. 4 To
determine whether the non-Headquarters PSCs were on track to meet the 5-year
requirement since the FY 2004 policy was put into place, we obtained information on
the PSC OSCARs issued and planned for FYs 2004 through 2008.




4
 SSA management also noted that before FY 2005, CSI staff used the PSC OSCAR guide as an outline
when performing the reviews because it was an outdated document. Since May 2005, the PSC OSCAR
guide has undergone monthly revisions to reflect the current operating environment in the PSCs.

On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)                       3
We found that the non-Headquarters PSCs had reviewed or planned to review all of
their components by FY 2008, as shown in Table 3.

                       Table 3: Planned and Issued OSCARs Per PSC
                                   FYs 2004 through 2008
                  (Related to 159 PSC Components in the 6 Non-Headquarters PSCs)
                         PSC Components                       Total       Total            Percent
     PSC        2004    2005   2006    2007
                                              a
                                                  2008
                                                         a
                                                             Reviews   Componentsb        Reviewedc
NEPSC             3       3      0       8          12         26            26              100%
                                                                               d
MATPSC            4       5      4       5           6         24            18              133%
SEPSC             9       6      5       5           5         30            29              103%
GLPSC             6       2      7       8           7         30            29              103%
WNPSC             0       8      4       6           7         25            25              100%
MAMPSC            6       6      8       6           6         32            32              100%
     Total     28       30      28      38      43         167             159             105%
    Note a: Already issued or planned.
    Note b: Total components represent the components that were reviewed or scheduled to be reviewed
            under the OSCAR process. However, these do not represent all components that were
            subject to an OSCAR review (see page 6).
    Note c: Some components were reviewed or scheduled to be reviewed more than once during the
            5-year period.
    Note d: The MATPSC currently reviews 16 components because 2 modules disbanded in April 2006.

The Northeastern PSC did not review components in FY 2006. CSI staff at the
Northeastern PSC stated they postponed the FY 2006 OSCARs because of a regional
mandate that required all component managers to perform a self-review OSCAR in
FY 2006. 5 The CSI staff acknowledged that these self-reviews do not replace the PSC
OSCAR 5-year requirement. However, at the time, they considered it counterproductive
for every PSC component to conduct both self-reviews and CSI OSCARs at the same
time. The CSI staff stated they were closely involved in supporting the manager self-
reviews.

The OSCAR guides for other SSA components require a minimum number of OSCARs
to be conducted each year so that the reviews are performed consistently throughout
the 5-year period. For instance, the Office of Disability Adjudication and Review
OSCAR guide 6 requires that offices annually review 20 percent of the field and
Headquarters offices/components under their jurisdiction or use the 10 percent of the
targeted review process each year and complete all offices/components within 5 years.
SSA could develop similar guidance for the PSCs that establishes a minimum
requirement for the number of PSC components to be reviewed annually in conjunction
with the requirement to review all PSC components at least once during a 5-year cycle.
In the case of the Northeastern PSC, such a policy would have led to five OSCARs per
year. Such a policy would also ensure that PSCs undergo periodic reviews and
deficiencies are detected earlier rather than later.



5
    We found that 21 of the 26 components had a self-review OSCAR during FY 2006.
6
 The Office of Disability Adjudication and Review Onsite Security Control and Audit Review Guide
(April 2006).

On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)                             4
Headquarters PSCs

The two Headquarters PSCs, ODO and OIO, 7 had not been reviewed under the PSC
OSCAR process at the time of our review, even though the two PSCs conducted the
same type of work as the non-Headquarters PSCs. 8 CSI staff in the Office of Central
Operations (OCO) stated that the PSCs were not reviewed using the PSC OSCAR
guide because most of the questions and steps were not applicable to the PSCs. In our
review of the OSCAR guide, we found that, while some of the chapters may not have
been applicable to all the Headquarters PSCs, other chapters were relevant to their
operations such as (1) time and attendance, (2) security of automated systems, and (3)
physical and protective security.

CSI staff noted that self-reviews and other types of reviews had been performed at the
ODO and OIO locations over the years. For example, CSI staff conducted reviews that
covered items that are also contained in the OSCAR (that is, time and attendance,
Single Payment System [SPS], 9 and programmatic reviews). CSI staff has also
conducted reviews of the enumeration process at OIO. Moreover, both PSCs were also
subject to operations reviews that included security and mailroom reviews.

CSI staff informed us that they were developing an OSCAR guide for the ODO and OIO
PSCs and planned to implement it in FY 2008. We believe this change in operations
will formalize the review process at the two PSCs, increase monitoring of reviews and
recommendations, 10 and ensure the two PSCs are subject to the same requirements as
non-Headquarters PSCs.

SELECTION OF COMPONENTS FOR REVIEW

The CSIs did not have a clear, consistent policy to determine which PSC components
should be included in the OSCAR process. While the PSC OSCAR requires that all
PSC components be reviewed at least once during a 5-year cycle, we found that the
CSIs had defined the PSC components subject to an OSCAR review differently.

Although the six non-Headquarters PSCs had approximately 185 components
nationally, 11 the CSIs only reviewed or were scheduled to review 159 of these
components under the OSCAR process (see Table 4). Hence, 26 (14 percent)
components within 5 PSCs did not receive or were not scheduled to receive an OSCAR
review. For each PSC, the CSI determined which components should be reviewed

7
    See Appendix C for information on the role of ODO and OIO.
8
    SSA Program Operations Manual System OS 01201.001 Functions of the Program Service Centers.
9
 The SPS is a national system used to automate appointed representative fee payments and other Title II
payments that cannot be made through the current Title II system.
10
     We discuss this in the next section of the report.
11
  We reviewed the organizational charts and/or telephone directories for each of the six PSCs and
confirmed our understanding of the PSC organizational structure with PSC management.

On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)                              5
using the PSC OSCAR guide. Several CSI staff stated they did not conduct PSC
OSCARs on certain PSC components such as the Operations Support Branch and the
Computer Operations Section because many of the PSC OSCAR chapters were not
applicable.

                   Table 4: PSC Components Not Reviewed Under OSCAR
                                  FYs 2002 through 2006
                   (Related to 185 PSC Components in the 6 Non-Headquarters PSCs)
                                                                              Percentage of
                       Total Number      Components       Components Not     Components Not
                             of         Reviewed Using    Reviewed Using    Reviewed Using the
          PSC          Components      the PSC OSCAR        the OSCAR            OSCAR
     MATPSC                   31                  18           13                 42%
     MAMPSC                   41                  32            9                 22%
     NEPSC                    28                  26            2                  7%
     WNPSC                    26                  25            1                  4%
     GLPSC                    30                  29            1                  3%
     SEPSC                    29                  29            0                  0%
         Total               185                 159           26                 14%

As an example, the CSI staff at the Mid-Atlantic PSC reviewed 18 components using
the PSC OSCAR guide to include 16 modules, the Intermediate Claims Taking Unit, and
the Inquiry and Expediting Unit. However, they excluded 13 (42 percent) of the
components in the PSC from the OSCAR review process such as

•     the mailroom,
•     the four Process Areas,
•     the Disability Processing Branch,
•     the Operations Support Branch,
•     the Operations Analysis Section,
•     the Computer Operations Section, and
•     the Debt Management Section. 12

CSI staff at the Mid-Atlantic PSC stated they conducted compensating reviews for PSC
components that were not reviewed under the OSCAR process, such as annual
mailroom audits, third-party draft and acquisition audits, and remittance and accounting
unit annual audits. In our discussion with CSI staff at the other regions, we were told
that they also conducted various internal control reviews of components not covered by
an OSCAR.

We found the SEPSC was the only location where all of the components had been
reviewed under the OSCAR guide. The CSI at the SEPSC reviewed all 29 of the PSC
components as well as 5 Management and Operations Support (MOS) components that



12
     See Appendix D for a full listing of components.

On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)                       6
are housed within the PSC. 13 CSI staff stated that the purpose of including all of these
components within the OSCAR was to maintain a consistent security posture within the
physical location of the SEPSC. Furthermore, they explained that they used the PSC
OSCAR chapters applicable to the component being reviewed. For example, the
OSCAR of the Labor Management and Employee Relations component was conducted
using (1) time and attendance, (2) security of automated systems, and (3) physical
security chapters of the OSCAR guide. The final OSCAR report contained relevant
findings and recommendations related to time and attendance and the security of
automated systems. CSI staff also discussed various aspects of physical security with
management as part of their review.

CORRECTION OF DEFICIENCIES
Generally, we found that the CSIs issued timely PCS OSCAR reports and the audited
components had taken appropriate actions on the recommendations. However,
monitoring and follow-up actions related to the OSCAR process needed to be improved.

TIMELINESS OF ISSUING AND RESPONDING TO OSCAR REPORTS

The OSCAR guide requires the issuance of an OSCAR report within 45 calendar days
from the completion of the OSCAR. We found that the OSCAR reports were issued
timely or close to on time, as shown in Table 5. The reports were issued on average
13 to 51 calendar days. Moreover, the PSCs are required to provide to the CSIs a
report of corrective action planned and/or taken within 45 days of receipt of the OSCAR
report. Table 5 shows the PSCs issued the corrective action reports within the 45-day
period or close to this period. These reports were issued within an average of 38 to
57 days.

                          Table 5: Timeliness of OSCAR Reports
                                  (Issued in FYs 2005 and 2006)
                             PSC Oscar Reports     Average Number            Average
                             Issued in FYs 2005     of Days to Issue       Component
               PSC                and 2006              Report            Response Time
       NEPSC                          3                     32                  57
       MATPSC                         9                     46                  41
       SEPSC                         11                     13                  38
       GLPSC                          9                     27                  40a
       WNPSC                         12                     51                  39
       MAMPSC                        14                     26                  39
       a
        Note: The 40-day average component response time for GLPSC was calculated based on
       six reports instead of the nine reports that were issued. The CSI at GLPSC did not have
       evidence that it had received a corrective action reponses for three reports.




13
   The SEPSC reviewed five MOS components as part of the OSCAR because these components are
housed within the PSC. The five components include the (1) Labor Management and Employee
Relations; (2) Servicing Personnel Team; (3) Fiscal and Building Management Team; (4) Birmingham
Information Technology Team and (5) Training and Employee Development Team.

On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)                          7
FOLLOW-UP REPORTS

We were unable to determine the timeliness of the PSC OSCAR validation reports for
FYs 2005 to 2006 for the six PSCs because of incomplete CSI documentation. Under
the OSCAR process, the ARC-PCOs are responsible for validating that corrective
actions have been implemented by sending a validation report to the CSIs 90 days after
receipt of the component’s response. We found that only the CSIs within Western and
Mid-America maintained validation documentation for both FYs 2005 and 2006. In
general, the CSIs relied on the ARC-PCO validation process to track and verify that the
recommended corrections were implemented. While the validation reports were being
tracked by the ARC-PCO, it is the responsibility of the CSIs to track the validation
reports sent to them to ensure the receipt and timeliness of the validation reports.

We visited the six PSC components to determine whether the recommendations had
been implemented timely and whether appropriate actions were taken. At each PSC,
we reviewed the last OSCAR reports issued in FY 2006. 14 We found that the 6 PSCs
had implemented 90 (92 percent) of the 98 recommendations by the time we visited,
which was at least 9 months after the reports were issued (see Table 6). There were
eight recommendations that were not implemented and they related to a number of
areas, including (1) enumeration, (2) SPS, (3) management controls, and (4) time and
attendance. 15

                     Table 6: OSCAR Recommendations Not Implemented
                         (FY 2006 OSCAR Reports for Components at Six PSCs)

                                                              Recommendations
                    CSI
                 OSCAR           OIG
                  Report       Review       Total                          Not           Percent
   PSC             Date          Date      Number     Implemented      Implemented     Implemented
 SEPSC          09/01/2006    07/19/2007     24            24               0             100%
 MAMPSC         09/28/2006    07/01/2007     25            25               0             100%
 MATPSC         08/16/2006    06/26/2007     22            19               3              86%
 WNPSC          09/29/2006    07/26/2007      7             6               1              86%
 GLPSC          03/01/2006    07/19/2007     13            11               2              85%
 NEPSC          10/20/2006    07/31/2007      7             5               2              71%
 Total                                       98            90               8              92%

MONITORING SYSTEMS

We found that four of the six CSIs had no central management tracking system for
follow-up on the OSCAR findings, corrections, or receipt of validation reports. While
the PSC OSCAR does not require that CSI maintain a tracking system, we believe not



14
     The NEPSC did not issue a report in FY 2006; therefore, we selected the first report issued in FY 2007.
15
     See Appendix E for more details about the recommendations that were not implemented.

On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)                                  8
doing so increases the risk that OSCAR recommendations remain unresolved (as noted
earlier), and managers do not have the information necessary to track the results of the
OSCAR process.

We found that CSIs in the MATPSC and SEPSC had tracking systems in place to
monitor the entire OSCAR process. The CSI office at the SEPSC had the most
comprehensive system for tracking the OSCAR process. Within the tracking system,
reviews were tracked by FY from the date the notification memorandum was sent to
the component manager through the verification of the corrective actions. The
tracking system included

•    a component checklist that tracked the component OSCARs by FY;
•    the CSI’s 5-year plan of PSC OSCARs; and
•    a checklist that tracked the manager self-reviews by FY.

As for the four remaining PSCs, the CSI management did not track their reports through
the entire OSCAR process. Instead, they relied on the individual CSI staff to follow up
on the response to the reports through the OSCAR process using email reminders
and/or the ARC-PCO validation process.

Furthermore, we found that the lack of adequate management information was also
evident at the national level. For instance, we found that the national DFI tracking
reports 16 incorrectly documented the status of PSC OSCAR reports at five of the six
PSCs during FYs 2002 through 2006. As shown in Table 7, the DFI tracking reports did
not document 14 OSCARs conducted in 4 PSCs for 4 of the 5 FYs reviewed. We also
found that the DFI tracking reports for FYs 2005 documented four reviews in the
Western and Great Lakes PSCs that were not conducted by the regions. Evidence
could not be provided by DFI or the CSIs to determine why the OSCAR reports were
incorrectly documented on the DFI tracking reports.




16
   Every FY the DFI develops the Division of Financial Integrity Tracking Report, which is an internal
tracking report. The information in the report is based on data requests sent to the regions and reporting
requirements in the PSC OSCAR guide. In the report, DFI monitors the number of reviews conducted to
support the Agency's compliance with guidance, and for inclusion in the Agency's Annual Performance
and Accountability Report (PAR). These reviews are discussed in the Systems and Controls section of
the PAR, and statistics about the OSCARs are presented.

On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)                                 9
                           Table 7: OSCAR Reviews Documented
                           Incorrectly on the DFI Tracking Reports
                                    FY       FY       FY        FY
                       PSC         2002     2003     2005      2006     Total
                    Reviewed But Not Documented in the DFI Tracking Report
                  SEPSC              2        1                           3
                  MATPSC             1        2        1         1        5
                  GLPSC                                          1        1
                  MAMPSC             5                                    5
                      Total          8        3        1         2       14
                    Documented in the DFI Tracking Report But Not Reviewed
                  GLPSC                       1                           1
                  WNPSC                                3                  3
                      Total                   1        3                  4
                  Grand Total        8        4        4         2       18

According to SSA staff, the Agency goal is to develop an Automated OSCAR for the
PSCs in the near future that will automatically monitor and track the OSCAR process.
Currently, SSA tracks and monitors the field office OSCARs using the Automated
OSCAR, which allows CSI to enter the findings electronically and generate the required
reports, corrective action plans, and validations, thereby eliminating the manual
reporting requirements. Moreover, DFI has access to the Automated OSCAR for field
offices, which eliminates the need for CSIs to manually report to DFI the number of field
office OSCARs conducted during the FY. We encourage SSA to expedite the
development of the PSC Automated OSCAR, as we believe a centralized tracking
system will help improve monitoring and follow-up actions for the PSC OSCARs as well
as produce accurate management information reports.

PROTECTION OF SENSITIVE DATA
Current PSC OSCAR procedures do not include sufficient steps to ensure that PII
contained in SSA’s automated systems is protected. Such procedures need to be
updated to provide for adequate review of handling PII contained in SSA’s automated
systems. The PSC OSCAR guide’s Chapter 5, Security of Automated Systems,
includes procedures for reviewing SSA’s automated systems and associated data at
PSCs. The OSCAR guide should further consider current work environments that allow
some PSC staff to work from home using an SSA-provided laptop. For example, the
PSC OSCAR does not review procedures in place to ensure safeguarding laptop
computers and/or the PII contained within the laptop computers taken outside of the
PSCs. 17

17
   In June 2006, SSA released interim guidance on safeguarding this information as part of its Information
Systems Security Handbook, which provides basic security guidance for SSA employees, contractors,
and government or business partners who handle SSA information. The responsibility to protect PII
applies at all times, regardless of whether SSA employees, contractors or other government personnel
with this information are officially on duty or not on duty. SSA is working on an additional information
security document geared to the individual users and managers outlining all the information security
issues.

On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)                                10
                                                    Conclusions and
                                                   Recommendations
While SSA is making progress to ensure that all PSCs meet the 5-year OSCAR review
requirement, the Agency needs to ensure that the CSI components have a consistent
method for identifying components subject to review and then maintain a management
tracking system to assess their overall progress. Finally, SSA needs to ensure the PSC
OSCAR guide addresses known areas of risk, such as the need to safeguard laptop
computers and/or the PII contained therein.

RECOMMENDATIONS
To improve the OSCAR process and increase its effectiveness, we recommend SSA:

1. Develop a consistent national policy on which PSC components are included in the
   OSCAR process and ensure any changes from this policy are approved by DFI
   management.

2. Review all PSC components at least once during a 5-year cycle.

3. Establish a minimum number or percent of PSC component reviews that must be
   conducted annually within each region, similar to the 10-percent rule used by other
   SSA offices conducting OSCARs.

4. Ensure the ODO and OIO PSCs are reviewed timely under the PSC OSCAR
   process.

5. Require that the CSI offices obtain and maintain validation reports in a timely
   manner.

6. Develop the Automated OSCAR for the PSCs so that CSIs can (a) automatically
   track and monitor the OSCAR reports, corrective actions, and validation reports and
   (b) accurately report to DFI the number of reviews conducted.

7. Update the OSCAR guide, as needed, to include the protection of sensitive data,
   especially to safeguard laptop computers and/or the PII contained within the laptop
   computers taken outside of the PSCs.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix F.




On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)                   11
                                           Appendices




On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)
                                                                     Appendix A

Acronyms
 ARC-PCO           Assistant Regional Commissioner for Processing Center Operations
 CPS               Critical Payment System
 CSI               Center for Security and Integrity
 DFI               Division of Financial Integrity
 FPPS              Federal Personnel Payroll System
 FMFIA             Federal Managers' Financial Integrity Act
 FY                Fiscal Year
 GLPSC             Great Lakes Program Service Center
 MCR               Management Control Review
 MAMPSC            Mid-America Program Service Center
 MATPSC            Mid-Atlantic Program Service Center
 MOS               Management Operations Support
 NEPSC             Northeastern Program Service Center
 OCO               Office of Central Operations
 ODO               Office of Disability Operations
 OIO               Office of International Operations
 OSCAR             On-site Security Control and Audit Review
 PAR               Performance and Accountability Report
 PII               Personally Identifiable Information
 PSC               Program Service Center
 SPS               Single Payment System
 SSA               Social Security Administration
 SEPSC             Southeastern Program Service Center
 WNPSC             Western Program Service Center




On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)
                                                                              Appendix B

Scope and Methodology
To accomplish our objectives, we:

•   Reviewed the Social Security Administration’s (SSA) policies and procedures
    pertaining to the Program Service Centers (PSC), including the criteria pertaining to
    On-site Security Control and Audit Reviews (OSCAR) at PSCs. The PSC OSCAR
    guide for Fiscal Year (FY) 2006 1 consists of 10 chapters, as shown below:

       o   Third Party Draft Account;
       o   Acquisitions;
       o   Debt Management System;
       o   Time and Attendance;
       o   Security of Automated Systems;
       o   Physical and Protective Security;
       o   Enumeration;
       o   Single Payment System and One Check Only Payments;
       o   Integrity Review Areas; and
       o   Management Controls.

•   Reviewed prior Office of the Inspector General audit reports.

•   Met with SSA staff to gain a better understanding of the OSCAR process as well as
    other compensating controls.

•   Gained an understanding of PSC components through interviews with PSC staff as
    well as a review of PSC organizational charts and telephone directories.

•   Obtained a listing of all PSC OSCARS performed at the PSCs during FYs 2002 to
    2006 and reviews scheduled during FYs 2007 and 2008. For FYs 2005 to 2006
    audit period, we:

    o Collected and analyzed data related to the timeliness of issuing OSCAR reports
      related to the PSC OSCARs performed.




1
 Before 2006, the OSCAR guide had 13 chapters, the Integrity Review chapter was added, and
4 chapters were deleted.


On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)                           B-1
   o Selected the last OSCAR reports issued in FY 2006 for the six non-Headquarters
     PSCs. If the PSC did not issue a report in FY 2006, we selected the first report
     issued in FY 2007. The reports were selected for our visit to the six PSCs to
     determine whether the OSCAR follow-up process was correctly followed and that
     recommendations were implemented as required.

We found data used for this audit to be sufficiently reliable to meet our objectives. The
entity audited was the Office of the Deputy Commissioner of Operations. We conducted
our fieldwork from December 2006 through September 2007 in Philadelphia,
Pennsylvania; New York, New York; Richmond, California; Kansas City, Missouri;
Chicago, Illinois; Birmingham, Alabama; and Baltimore, Maryland. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)                B-2
                                                                             Appendix C

Functions and Description of the Program
Service Centers
The Program Service Centers (PSC) are six large and complex multi-mission stations,
established as extensions of the national Headquarters. There are actually eight such
centers, collectively referred to as “processing centers.” The other two centers are
located in the national Headquarters of the Social Security Administration (SSA) in
Baltimore, Maryland. The Office of Disability Operations (ODO) in Baltimore performs
generally the same type of work as a PSC and serves all persons less than 59 years of
age claiming disability insurance or black lung benefits. The Office of International
Operations (OIO) PSC serves all accounts in which one or more beneficiaries resides in
a foreign country. In addition, this PSC provides technical supervision to Foreign
Service posts for the taking and development of claims and the investigation of
subsequent actions affecting benefit payments.

The primary missions of the PSCs are to:
1. Provide uniform, accurate, and prompt processing of Social Security claims and post-
   adjudicative changes after beneficiaries have been entitled.
2. Perform formal and informal reconsideration of determinations.
3. Make determinations of overpayments and collects amounts due.
4. Maintain document records, updates computer records and certifies payment and
   collection transactions to the Department of the Treasury. 1

All 8 PSCs in our review consist of a total of 257 components. The 6 non-Headquarters
PSCs consist of 185 components located in 6 regions nationwide. The 2 PSCs located
in the national Headquarters, ODO and the OIO, consist of 58 components and
14 components, respectively.




1
    SSA Program Operations Manual System OS 01201.001 
                                                      Functions of the Program Service Centers.


On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)
                                                                          Appendix D

Comparison of Program Service Center
Components Reviewed Under On-Site Security
Control and Audit Reviews
In our review, we found that each Center for Security and Integrity (CSI) office had its
own definition of the Program Service Center (PSC) components subject to review
under the On-site Security Control and Audit Review (OSCAR) process. In Table D-1,
we show a comparison of the components reviewed using the OSCAR guide in the
Mid-Atlantic PSC and the Southeastern PSC. We found that the Mid-Atlantic PSC CSI
staff reviewed 18 of its 31 components, whereas CSI staff at the Southeastern PSC
reviewed all 29 components in the PSC.

                              Table D-1: PSC Components
                                Reviewed Using OSCAR

            Types of Program Service Center Component          MATPSC     SEPSC
      Modules                                                    Yes       Yes
      Immediate Claims Taking Unit                               Yes       Yes
      Inquiry and Expediting                                     Yes       Yes
      Process Division Office                                    No        Yes
      Processing Center Operations                               No        Yes
      Disability Process Branch                                  No        Yes
      Operations Analysis Section                                No        Yes
      Mail & Direct Input                                        No        Yes
      Computer Operations Section & Unit                         No        Yes
      Debt Management Section, Contact Unit, Remittance &
      Accounting & Debt Specialist Unit                              No    Yes
      Operations Support Branch                                      No    Yes




On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)
                                                                                     Appendix E

Recommendations Not Implemented
We conducted reviews in the six non-headquarters Program Service Centers (PSC) to
determine whether the recommendations from the On-site Security Control and Audit
Reviews (OSCAR) had been implemented timely and whether appropriate actions were
taken. We selected the last OSCAR reports issued in Fiscal Year (FY) 2006 for all of
the six PSCs in our review except the Northeastern PSC, which did not issue a report in
FY 2006. In this case, we selected the first report issued in FY 2007. We found that, of
98 recommendations made by the Centers for Security and Integrity, 8
recommendations were not implemented. Table E-1 gives a summary of the
recommendations.

                       Table E-1: Recommendations not Implemented
         PSC                Chapter                             Recommendation
                                            Authorizers must ensure Numident changes meet
    Northeastern PSC      Enumeration
                                            requirements.
                                            Remind authorizers to follow Agency procedures for
                                            determining eligibility for death underpayments and dividing
                        Single Payment
                                            these payments according to relationship to the deceased
                         System (SPS)
                                            beneficiary. Remind authorizers to code the Social Security
                                                                                                      1
                                            numbers of death underpayment payees per instructions.
                            Time and        Action should be taken to ensure that the timekeeper
    Mid-Atlantic PSC
                           Attendance       completes all items on the pre-approval register.
                                            Integrity reviews should have the correct remarks
                            Integrity
                                            documented on the certification screen per instructions.
                                            Refresher training is provided to the PSC Spikers on handling
                          Enumeration
                                            calls involving the enumeration process.
                          Management        Management should ensure that the Critical Payment System
    Great Lakes PSC                                 2
                           Controls         (CPS) records on the monthly reports are properly adjusted.
                                            Management should ensure that SPS cases are processed
                                            timely to avoid possible tampering with payment addresses or
                                            duplicate payments.
                                            The timekeeper should reconcile the Mainframe Time and
                            Time and
      Western PSC                           Attendance System to the information posted to the Federal
                           Attendance                                    3
                                            Personnel Payroll System (FPPS) record.




1
 Although the manager sent a reminder to all authorizers to follow the Agency procedures concerning
death underpayments, we found the finding still existed at the time of the follow-up review.

2
 CPS pays retroactive Title II benefits in critical cases and special situations when Master Beneficiary
Record payments are either not being made or being made while additional benefits are due.

3
 FPPS is an on-line, integrated personnel/payroll system used for the processing of all personnel and
pay-related functions.


On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)
                                                                     Appendix F

Agency Comments




On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)
                                         SOCIAL SECURITY

MEMORANDUM

Date:       April 1, 2008                                                        Refer To:   S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       David Foster /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, "On-site Security Control and audit
            Reviews at Program Service Centers” (A-03-07-17064)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments regarding the draft report
           and response to the recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




           On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)                          F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“ON-SITE SECURITY CONTROL AND AUDIT REVIEWS AT PROGRAM SERVICE
CENTERS” (A-03-07-17064)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

Develop a consistent national policy on which Program Service Center (PSC) components are
included in the On-Site Security Control and Audit Review (OSCAR) process and ensure any
changes from this policy are approved by Division of Financial Integrity (DFI) management.

Comment

We agree. The Division of Systems Security and Program Integrity is working closely with the
DFI to develop a consistent national policy, ensuring that any deviations from the policy are
approved by DFI management. We plan to have the policy decisions completed by
June 30, 2008.

Recommendation 2

Review all PSC components at least once during a 5-year cycle.

Comment

We agree. We are considering the 5-year cycle as an option as we develop our National policy
(see our response to recommendation 1). We plan to have the policy decisions completed by
June 30, 2008.

Recommendation 3

Establish a minimum number or percent of PSC component reviews that must be conducted
annually within each region, similar to the 10 percent rule used by other SSA offices conducting
OSCARs.

Comment

We agree. We are considering the 10 percent rule as an option as we develop our National
policy (see our response to recommendation 1). We plan to have the policy decisions completed
by June 30, 2008.

Recommendation 4

Ensure the Office of Disability Operations (ODO) and the Office of International Operations
(OIO) PSC’s are reviewed timely under the PSC OSCAR process.




On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)                        F-2
Comment

We agree. In December 2007, we established the OSCAR project plan for ODO and OIO PSCs.
They are both now subject to timely reviews under the PSC OSCAR process. The 5-year plan
started in January 2008, and will be completed in August 2012. The plan includes a review of
each Office of Central Operations component within that timeframe.

Recommendation 5

Require that the Center for Security and Integrity (CSI) offices obtain and maintain validation
reports in a timely manner.

Comment

We agree. Our ability to monitor for compliance will be enhanced by the automation of the PSC
OSCAR (see our response to recommendation 6). A reminder will be issued in April 2008 to all
of our CSIs informing them that they are to ensure that they obtain and maintain validation
reports in a timely manner.

Recommendation 6

Develop the Automated OSCAR for the PSCs so that CSIs can: a) automatically track and
monitor the OSCAR reports, corrective actions, and validation reports; and b) accurately report
to DFI the number of reviews conducted.

Comment

We agree. We are in the process of enhancing our current field office website of Automated
OSCARs to include the PSC OSCAR process. Our target date for completion of the
enhancements is early fiscal year 2009. Once the enhancements are complete, we will be able to
automatically track and monitor the OSCAR reports, corrective actions, and validation reports.
We will also be able to provide accurate and timely data to DFI regarding the number of reviews
conducted.

Recommendation 7

Update the OSCAR guide, as needed, to include the protection of sensitive data, especially to
safeguard laptop computers and/or the Personally Identifiable Information (PII) contained within
the laptop computers taken outside of the PSCs.




On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)                         F-3
Comment

We agree. Currently, we update the guide on a monthly basis to ensure it is in alignment with
the current security policies and procedures. While the current version of the PSC OSCAR guide
does contain questions related to the protection of sensitive data, including properly securing
laptops in the office when not in use, it does not contain a question regarding the protection of
PII contained within laptop computers taken outside of the PSCs. We will add this type of
question to the PSC OSCAR guide by May 2008.




On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)                        F-4
                                                                     Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Cylinda McCloud-Keal, Director, Philadelphia Audit Division, (215) 597-0572

Acknowledgments
In addition to those named above:

   Mary Dougherty, Auditor-in-Charge

   Richard Devers, Information Technology Specialist

   Elizabeth Juarez, Senior Auditor

   Timothy Meinholz, Senior Auditor

   Denise Molloy, Senior Analyst

   Karis Crane, Auditor

   Hollie Reeves, Auditor

   Nichole Purnell, Program Analyst

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-03-07-17064.




On-site Security Control and Audit Reviews at PSCs (A-03-07-17064)
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
